<html>
<title> - NOMINATIONS OF DR. SUSAN BAILEY, TO BE ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; AND MS. ARTHENIA JOYNER AND MR. DAVID PLAVIN, TO BE MEMBERS OF THE FEDERAL AVIATION MANAGEMENT ADVISORY COUNCIL</title>
<body><pre>[Senate Hearing 106-1135]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1135



                 NOMINATIONS OF DR. SUSAN BAILEY, TO BE
                     ADMINISTRATOR OF THE NATIONAL
                 HIGHWAY TRAFFIC SAFETY ADMINISTRATION;
                      AND MS. ARTHENIA JOYNER AND
                    MR. DAVID PLAVIN, TO BE MEMBERS
                   OF THE FEDERAL AVIATION MANAGEMENT
                            ADVISORY COUNCIL

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                           SEPTEMBER 14, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



85-585              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia



                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page

Hearing held on September 14, 2000...............................     1

Statement of Senator Lautenberg..................................     1
Statement of Senator Rockefeller.................................     1

                               WITNESSES

Bailey, Dr. Susan, Nominee to be Administrator of the National 
  Highway Traffic Safety Administration..........................     4
    Prepared statement...........................................     5
Statement of Senator Bob Graham..................................     3
    Prepared statement...........................................     4

                                APPENDIX

Cleland, Hon. Max, U.S. Senator from Georgia, prepared statement.     8
McCain, Hon. John, U.S. Senator from Arizona, prepared statement.     7
Joyner, Arthenia L., Nominee to the Federal Aviation Management 
  Advisory Council, prepared statement...........................     9
Mack, Hon. Connie, U.S. Senator from Florida, prepared statement.     9
Plavin, David Z., President, Airports Council International-North 
  America, prepared statement....................................    10
Biographical and Financial Information Submitted by Nominees:
    Bailey, Dr. Sue..............................................    11
    Joyner, Arthenia L...........................................    24
    Plavin, David Zachary........................................    38

 
                  NOMINATIONS OF DR. SUSAN BAILEY, TO 
BE ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; 
  AND MS. ARTHENIA JOYNER AND MR. DAVID PLAVIN, TO BE MEMBERS OF THE 
              FEDERAL AVIATION MANAGEMENT ADVISORY COUNCIL

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2000

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
253 of the Russell Senate Office Building, Hon. John D. 
Rockefeller, IV, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I would like to open the next hearing 
which will be brief. And Senator Lautenberg is here.
    I want to make this announcement. That is that we are about 
to go into a vote. I am not sure if it is the PNTR vote or not. 
But what I would propose to do here is to have Dr. Bailey, 
after Frank Lautenberg has said what he wants to say, to have 
you make your statement. And then because what Chairman McCain 
wants to do is do the confirmations. I do not think there are 
going to be any problems anywhere. But we have a time 
constraint. If we go vote, we will not come back. So let us 
officially do this right.
    Frank, who are you going to introduce?
    Senator Lautenberg. Dr. Bailey.
    Senator Rockefeller. So that works out nicely. And then Ms. 
Joyner and Mr. Plavin, please submit your testimony. There are 
not going to be problems. We want to be able to mark you up. If 
we do not have this hearing and go through some form of it, we 
cannot do that. So it is in your interest, in fact, not to 
testify, because there will be no problems. So now it is in all 
of our interests to listen to the distinguished Senator from 
New Jersey.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you, Mr. Chairman. Knowing how 
much you and I like our particular phase of public service, it 
then makes me feel pretty good when I have a chance to 
introduce someone who can help us serve the public as they 
ought to be served. And such is the case with Dr. Sue Bailey.
    I am pleased to introduce her, Mr. Chairman, to the 
Committee, and ask for expeditious treatment, so that she can 
do the job that we desperately want to have done. And it is 
being done now in an acting fashion.
    But when we look at the National Highway Traffic Safety 
Administration, we know that we have got an important task 
there. It is more than just another branch of government. It is 
the agency that is responsible for the safety of millions of 
American motorists and their families.
    I think we have seen in recent weeks how critical NHTSA is. 
It sets performance standards for motor vehicles, motor vehicle 
equipment, investigates safety defects, helps states reduce the 
threat of drunk drivers, researches driving behavior--that has 
got to be an endless pursuit--and promote the use of safety 
seatbelts and airbags.
    We have just been through what is a wrenching experience 
for all of America, and for those of us in Government as well, 
when we look at the controversy now that exists over the tire 
failures and the dispute between Firestone and Ford. I know, 
Mr. Chairman, that this Committee is looking at it.
    I watched Dr. Bailey's testimony in the Appropriation 
Subcommittee on Transportation and it was just excellent. She 
is a highly competent and extremely qualified person for the 
job. She comes to us from the Department of Defense, where she 
was an assistant secretary.
    Senator Rockefeller. Frank, we have a problem here. A 
distinguished Senator from Florida who has wandered in, 
obviously thinking this was another room, to present somebody.
    A vote just went off.
    Senator Lautenberg. How long has it been on?
    Senator Rockefeller. Well, it has been on about 4 minutes.
    Senator Lautenberg. So we will finish up very quickly.
    Senator Rockefeller. Real quick, right. And I also want 
people to have a chance to introduce their families if they are 
here.
    Senator Lautenberg. Well, Mr. Chairman, I will continue if 
you permit me and we can move this thing along.
    Senator Rockefeller. She is a great American, right?
    Senator Lautenberg. She is better than a great American.
    There are so many great Americans out there, but all of 
them do not have a chance to serve in this very demanding 
capacity.
    She is the first woman to lead the military health system. 
She is responsible for the health of 8.2 million military 
personnel and oversaw a $16 billion defense health program.
    In that capacity, she did a great job. She incorporated the 
President's Patients Bill of Rights into military medicine, and 
bolstered the role of preventive medicine in the U.S. Armed 
Forces. So we have in front of us someone who is eminently 
well-qualified. She is a graduate of the University of Maryland 
and the Philadelphia College of Osteopathy, completed her 
internship at George Washington University and did her 
residency at Johns Hopkins University Hospital.
    Senator Rockefeller. Frank, that is a perfect place to turn 
to Senator Graham.
    Senator Lautenberg. Mr. Chairman, I waited patiently for 
the opportunity to sit here.
    Senator Rockefeller. I know it.
    Senator Lautenberg. And I sat here for a half hour, Mr. 
Chairman
    Senator Rockefeller. I know it.
    Senator Lautenberg. This is an important job. And if you 
are satisfied with my testimony, Mr. Chairman, we will leave it 
at that. And I hope that the Committee will move appropriately. 
I have been available for this Committee since 10 a.m. this 
morning.
    Senator Rockefeller. I know.
    Senator Lautenberg. That was the schedule, Mr. Chairman. I 
thank you very much. Good luck, Dr. Bailey.
    Dr. Bailey. Thank you, Senator.
    Senator Rockefeller. Bob Graham.

             OPENING STATEMENT OF HON. BOB GRAHAM, 
                   U.S. SENATOR FROM FLORIDA

    Senator Graham. Thank you, Mr. Chairman. In deference to 
your time schedule and the vote that is underway, I would 
request permission to file my full statement for the record.
    Mr. Chairman, it is a great pleasure to introduce an 
outstanding Floridian and a long-time personal friend, Arthenia 
Joyner, who has been nominated by the President to the Federal 
Aviation Management Advisory Council. I would say that I am 
authorized by my colleague, Senator Mack, to state his strong 
support for Ms. Joyner. And he will submit a statement of that 
support.
    Just in summary, let me say that Ms. Joyner brings to this 
position her personal background of long activism in the 
community. While I was Governor, she was extremely helpful, 
particularly in a number of economic development issues. She is 
also a member of one of the outstanding law firms in our State.
    But what particularly has prepared her for this position is 
her service on the Hillsborough County Aviation Authority which 
is responsible for running a series of airports in the Tampa 
area, including Tampa International Airport. She served as a 
member, then as Vice Chair and finally as Chairperson of that 
very important authority.
    She brings all of that background to the position now of 
advising the Federal Aviation Agency on issues that will be 
important to the aviation structure of our Nation. I am pleased 
to be able to introduce Ms. Joyner to the Committee and urge 
prompt and affirmative action by the Committee on this 
nomination.
    Senator Rockefeller. Which will happen. Senator Graham, 
thank you very, very much. Can I ask each of you to introduce 
any family members that you might have here?
    Oh, yes, Senator Graham.
    Senator Graham. Mr. Chairman, Ms. Joyner does not have a 
family member in a biological sense, but she has Mr. Chris Hart 
who is a member of the Hillsborough County Commission and on 
the Hillsborough Aviation Authority.
    [The prepared statement of Senator Graham follows:]

                Prepared Statement of Hon. Bob Graham, 
                       U.S. Senator from Florida

    I am pleased to be here to introduce Arthenia Joyner, a fellow 
Floridian, and nominee for the Federal Aviation Management Advisory 
Council to your Committee.
    Senator Connie Mack also joins me in support for Ms. Joyner.
    I understand he has submitted a statement for the record.
    Ms. Joyner was born in Florida and has a long connection to 
aviation in our State. She was the first African American appointed to 
the Hillsborough County Aviation Authority, where she served as chair 
and vice-chair. She was the 1999 recipient of the Airport Minority 
Advisory Council Award.
    Currently, Ms. Joyner is the managing partner at the law firm of 
Stewart, Joyner and Jordan-Holmes in Tampa.
    Her public service to the State is notable. The most recent chapter 
of this public service began September 5, when she was elected to the 
Florida House of Representatives. She is active in the University 
Community Hospital Board of Trustees, the Greater Tampa Chamber of 
Commerce, and the National Council of Negro Women. President Clinton 
appointed her to the U.S. delegation to the International Conference on 
Population and Development in Cairo, Egypt, and the United Nations 
Fourth World Conference on Women in Beijing, China.
    I have come to know of her dedication and sound judgment when I 
appointed her to the Federal Judicial Nomination Commission in 1992.
    I am happy to join her before your Committee, and trust that you 
will find that her qualifications and dedication will be well received 
at the Federal Aviation Administration.

    Senator Rockefeller. Good. And we are very happy that you 
are here.
    Dr. Bailey.
    Dr. Bailey. Yes, I would like to introduce my brother, Mr. 
David Bailey and my, son Dr. Barton Leonard, and two childhood 
friends, Kathy Meyers and Ellen Joyce.
    Senator Rockefeller. All right.
    Mr. Plavin.
    Mr. Plavin. Unfortunately, my family was not able to join 
me today. So I thank you for the opportunity.
    Senator Rockefeller. Now, what I think we need to do--the 
second bell has not gone off yet. Well, it just did. So, Dr. 
Bailey, are you capable of doing about a 3-minute presentation?
    Dr. Bailey. Yes, sir. I will edit as I go.
    Senator Rockefeller. All right.

     OPENING STATEMENT OF DR. SUSAN BAILEY, NOMINEE TO BE 
     ADMINISTRATOR OF THE NATIONAL HIGHWAY TRAFFIC SAFETY 
                         ADMINISTRATION

    Dr. Bailey. First, I want to tell you I am very pleased to 
appear before you this morning as you consider my nomination to 
NHTSA.
    In serving as Administrator, I am going to draw on my 
experience of 23 years as a physician and my work as Assistant 
Secretary of Defense that you have heard about here this 
morning which gave me, I believe, a real understanding of the 
Federal Government.
    In the 3\1/2\ weeks I have been on the job, I have 
experienced first-hand the deep concern that people have about 
the vehicles that they drive and have also experienced the 
dedication of the NHTSA staff to assure their safety.
    I assure you that I will do everything in my power to 
complete that investigation expeditiously.
    The recall of defective vehicles is only one part of the 
mission. We have a broad mandate to improve all the aspects of 
vehicle and highway safety. Under Secretary Slater's 
leadership, seat belt use is increasing, highway deaths and 
injury rates are decreasing, and alcohol-related crashes are 
declining as well.
    We are going to persist in our efforts to reduce the 
terrible toll of deaths caused by drunk driving. And with the 
combined efforts of agencies and organizations, we will 
steadily push the rate of alcohol-involved fatalities downward 
even further. I know that the President and Secretary Slater 
enthusiastically support, as I do, the establishment of a 
national .08 blood alcohol concentration standard. We can save 
500 lives a year with that and I am intent upon accomplishing 
that.
    I look forward to building a good relationship with you, 
Mr. Chairman, and with the members of this key Committee. I 
want to go on record as thanking you for your support of this 
agency and I will answer any question.
    [The prepared statement of Dr. Sue Bailey follows:]

Prepared Statement of Dr. Susan Bailey, Nominee to be Administrator of 
           the National Highway Traffic Safety Administration

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you this morning as you consider my nomination to serve as 
Administrator of the National Highway Traffic Safety Administration 
(NHTSA). I am truly honored to be nominated by the President and to 
have the opportunity to appear before you today regarding my 
confirmation and to answer any questions you may have about my 
qualifications and my plans as Administrator.
    In serving as Administrator, I will draw on my years of experience 
as a physician and as a government administrator. My medical education 
and my 23 years as a doctor give me an excellent base of knowledge and 
experience for a position that relates, above all, to the prevention of 
deaths and injuries. My service in the Department of Defense as 
Assistant Secretary for Health Affairs has provided me with an 
understanding of the workings of the Federal Government and experience 
in managing the large budget and human resources of a complex 
organization.
    The National Highway Traffic Safety Administration plays a vital 
role in the continuing effort to make travel safer on the Nation's 
highways. Its mission is absolutely clear: to save lives and prevent 
injuries. As a physician, I have dedicated my life to public health. I 
welcome the opportunity to lead the agency in its service to the 
American public.
    In the 3\1/2\ weeks I have been on the job, I have experienced 
first-hand the concern that people have about the safety of the 
vehicles they drive and the dedication of the NHTSA staff to assure 
their safety. Since my first day at NHTSA, the Firestone recall has 
been the overwhelming issue, bringing intense scrutiny not only to 
Firestone and Ford but to NHTSA. I assure you that I will do everything 
in my power to complete our investigation as expeditiously as possible 
and to ensure that the agency's agenda focuses laser-like on the safety 
of the traveling public.
    The recall of defective vehicles and equipment is only one part of 
NHTSA's mission. The agency has a broad mandate to improve all aspects 
of vehicle and highway safety. Through its power to regulate the safety 
of vehicles and equipment, it has significantly raised the overall 
level of safety on America's highways. Under Secretary Slater's 
leadership, seat belt use is increasing, highway death and injury rates 
are going down, and alcohol-related highway fatalities are declining. 
We can do better, and we must move forward to complete the safety 
actions on our agenda, such as a comprehensive plan for child safety 
seats. Of course, I have pledged to you that I will vigorously seek to 
improve the standards that address the problems identified in the 
Firestone recall.
    Today we are facing changing demographics in America. The baby boom 
generation is aging, at the same time that the school-age population is 
rapidly increasing. Our programs must address the needs of older 
drivers and ensure the safe performance of beginning drivers. Seat belt 
use for all groups is not high enough, nor are child safety seats being 
used as they should be. We must increase our efforts, in partnership 
with the States and the private sector, if we are to meet Secretary 
Slater's goal of 85 percent seat belt use. We know this is possible, 
because some States have already exceeded that level. We must see that 
it happens everywhere.
    We will persist in our effort to reduce the terrible toll of deaths 
and injuries caused by drunk driving. With the combined efforts of many 
agencies and organizations, we are steadily pushing the rate of 
alcohol-involved fatalities downward, but it is still unacceptably 
high. Along with the President and Secretary Slater, I enthusiastically 
support establishment of a national .08 blood alcohol content standard, 
because I know it will save appproximately 500 lives a year. How often 
is there such an opportunity?
    I look forward to building a good relationship with you, Mr. 
Chairman, and with the Members of this key Committee. I want to go on 
record as thanking you for your support of this agency and for all of 
your past efforts on its behalf. I will be pleased to answer your 
questions.

    Senator Rockefeller. That is perfect. And it being 
perfection, and time running out on the vote, I want to thank 
you. I want to thank all three of you. You have all fulfilled a 
very important purpose here. We will now be able to markup all 
of you and do all of you before we adjourn. That is terribly, 
terribly important, I think, to all three of you.
    I thank you. I apologize for this most unorthodox way of 
conducting a short hearing after a very long hearing which is 
sometimes, I think, actually quite helpful because you can get 
into things. I thank you for your cooperation.
    This hearing is adjourned.
    [Whereupon, at 12:55 p.m., the hearing was adjourned.]

                            A P P E N D I X

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    We will now move to consider three nominations before the 
Committee. Joining us today are Dr. Susan Bailey, nominated to 
serve as Administrator to the National Highway Transportation 
Safety Administration. She was appointed to this position by 
the President during the August recess. We are also joined by 
two of the President's nominations to the Federal Aviation 
Management Advisory Council, Ms. Arthenia Joyner, and Mr. David 
Plavin. I want to thank our witnesses for their time today.

    Over the past few weeks, we have been reminded of the 
importance of the National Highway Traffic Safety 
Administration and the person charged with leading the Agency. 
The National Highway Traffic Safety Administration was 
established in 1970 to carry out a congressional mandate to 
reduce the mounting number of deaths, injuries, and economic 
losses resulting from car crashes on the Nation's highways. 
While we certainly have had some success in improving safety, 
the Firestone tire recall reminds us we have much more work to 
do.

    Dr. Bailey will take charge of this Agency at a critical 
time. I am hopeful that she will devote her attention to 
improving the Motor Vehicle Safety Statutes as they relate to 
detecting safety related defects as well as internal changes at 
the Office of Defects Investigations to improve its 
effectiveness. The Agency faces other difficult challenges in a 
number of areas including: addressing the important issue of 
vehicle rollover; implementation of the new airbag rule; 
continuing its battle against drunk driving and improving the 
use and effectiveness of child safety seats. The agency must be 
more proactive and aggressive in meeting its mandate to improve 
motor vehicle safety.

    I want to thank Dr. Bailey for her continued commitment to 
public service and I look forward to hearing your comments. If 
you have family members present, please feel free to introduce 
them now.

    The members of the Management Advisory Council are intended 
to represent collectively a broad cross-section of the aviation 
industry who will constitute an Advisory Board for the FAA 
Administrator. The main purpose of the Management Advisory 
Council is to help formulate, and to support and oversee the 
FAA's goals and strategies. Although the Council is expected to 
hold the FAA Administrator accountable for meeting goals on 
time and living within budgetary guidelines, the Administrator 
retains the final authority on all matters within the agency's 
jurisdiction, because aviation safety has been and must be the 
paramount mission of the agency. As such, the direct powers of 
the Management Advisory Council are intentionally limited.

    As I mentioned during the nomination hearing in May, the 
substantive issues the Council will face are challenging. The 
FAA needs to do a better job of managing labor and air traffic 
control modernization costs during a time of enormous growth in 
aviation. Congress has provided the FAA with a nearly 
unprecedented boost in funding to provide the infrastructure 
necessary to accommodate increased air traffic. Yet as the 
hearing this morning indicated, delays are severely hampering 
an already overburdened system. The FAA must take the lead in 
returning air travel to a predictable and convenient mode of 
transportation that our economy has come to depend on.

    I want the nominees to know that the Management Advisory 
Council has my full support in its endeavors. For your work to 
make a contribution will require an enormous amount of your 
time and patience. I thank you wholeheartedly for your 
willingness to serve. Please feel free to introduce any family 
members here, before you give your remarks.
                                ------                                


                Prepared Statement of Hon. Max Cleland, 
                       U.S. Senator from Georgia

    Mr. Chairman, I wish to register my strong support for the 
nomination by the President of Dr. Sue Bailey of Bethesda, 
Maryland, to serve as Administrator of the National Highway 
Traffic Safety Administration (NHTSA) within the United States 
Department of Transportation.

    Dr. Bailey, who comes to the post at a crucial time in the 
life of NHTSA, has served with distinction as Assistant 
Secretary of Defense (Health Affairs) since 1998. Prior to 
that, she served as Deputy Assistant Secretary of Defense for 
Health Affairs during 1994-95 and as Medical Director of Chevy 
Chase Associates, Inc. from 1988 to 1993 and other senior 
positions of responsibility in the health care profession.

    Dr. Bailey's professional career was preceded by medical 
training at the University of Maryland and Philadelphia College 
of Osteopathic Medicine, an internship at George Washington 
University Hospital and residency at Johns Hopkins University 
Hospital. She has served in the U.S. Navy Reserve, rising to 
the rank of Lieutenant Commander. Both as an outstanding 
private practitioner-psychiatrist, neurologist and public 
health specialist, and as a member of our Nation's military, 
she has been a shining star.

    At the Department of Defense, where Dr. Bailey continued 
her career of public service, she has also been a trailblazer. 
She is the first woman to lead the Military Health System, 
responsible for the health of 8.2 million lives and the $16 
billion Defense Health Program. She incorporated the 
President's Patient Bill of Rights into the practice of 
military medicine and has instituted the inclusion of 
continuity of care, preventive medicine and health protection 
in the U.S. Armed Forces.

    As a former soldier and Administrator of the Veterans 
Administration myself, I have deep personal admiration for Dr. 
Bailey's achievements in looking after the health concerns of 
our Nation's military as she has. In that sense, much of her 
mission in life has paralleled my own. Her service to country 
is laudable, even were she to return to the world of private 
medical practice after such a distinguished career at the 
Pentagon. She could, with justification, rest on her laurels as 
a public servant to whom a grateful Nation would owe a 
tremendous debt for a job well done.

    Instead, she has chosen to answer the President's call to 
assume yet another mantle of leadership, this time in the 
service of the safety of the millions of Americans who travel 
our interstates, highways and byways each and every day of the 
year. Rather than taking her well-deserved just desserts, she 
has chosen to join Transportation Secretary Rodney Slater and 
his leadership team at the Department of Transportation in 
advancing the cause of safety, the No. 1 transportation goal of 
this Administration, even if for only a few months. Secretary 
Slater regards safety as his department's North Star, by which 
USDOT is guided and willing to be judged.

    It is at this critical time in the life of NHTSA, with the 
recall of millions of defective tires on vehicles owned by 
hundreds of thousands of our citizens, that Dr. Bailey has 
arrived to bring her special brand of seasoned, reasoned, 
tough, but fair, leadership to this vital agency of the 
Department of Transportation. And we are all grateful for her 
willingness to do so.

    As reported in a recent feature in the New York Times, Dr. 
Bailey, then a young mother in Philadelphia in the early 1970s, 
hired a mechanic to install a seat belt for her preschool son 
on the bus that hauled neighborhood children, and who, long 
before the advent of child-restraint seats, made one of her own 
by cutting holes in a plastic child seat so a seat belt could 
be looped through it to keep her infant daughter safe. Such is 
the nature of this candidate to serve our Nation as 
Administrator of NHTSA.

    But, having said all this and so much more I could about 
her educational and career achievements and her exemplary 
service to country, I must conclude, Mr. Chairman, with the 
most stellar credential of all, Dr. Sue Bailey is a woman with 
a passion for bettering the human condition, be it the public 
health battles she so courageously fought and won on behalf of 
rank-and-file service people during her time at the Pentagon, 
or the safety of vehicular passengers traveling our Nation's 
highways.

    I commend the President for this outstanding nomination, 
and Dr. Sue Bailey for her dedication to serving our country as 
Administrator of the National Highway Traffic Safety 
Administration. I urge my colleagues to join me in 
enthusiastically voting for her confirmation.
                                ------                                


                Prepared Statement of Hon. Connie Mack, 
                       U.S. Senator from Florida

    Mr. Chairman and Members of the Committee, I am pleased to 
have the opportunity to introduce Arthenia Joyner for your 
consideration as a member of the Federal Aviation 
Administration Management Advisory Council.

    Ms. Joyner, a native of Lakeland, Florida, has an 
impressive resume and a respectable background in aviation. She 
began her academic career at Florida A&M University where she 
graduated with a Bachelor of Science degree. Ms. Joyner then 
earned her Juris Doctorate from Florida A&M University School 
of Law.

    Over the course of Ms. Joyner's career, she has served as 
Chair of the Federal Judicial Nomination Commission for the 
Thirteenth Judicial Circuit, and a member of the Federal 
Judicial Nomination Commission for the State of Florida. 
Additionally, she has served as Chairman and Vice Chairman of 
the Hillsborough County Aviation Authority. In 1994, she was 
appointed to the U.S. Delegation to the International 
Conference of Population and Development, and in 1995 she 
served as a representative to the United Nations Fourth World 
Conference on Women.

    Ms. Joyner is the recipient of numerous awards including 
the 1999 Airport Minority Advisory Council Leadership Award and 
the 1993 Criminal Justice Person of the Year Award. Ms. 
Joyner's extensive civic participation includes the National 
Council of Negro Women, the University Community Hospital Board 
of Trustees and the Greater Tampa Chamber of Commerce.

    Currently, Ms. Joyner is the managing partner in the law 
firm of Stewart, Joyner & Jordan-Holmes, P.A., a Tampa-based 
firm. Ms. Joyner specializes in probate, guardianship and 
public finance law. On September 5, 2000, Arthenia Joyner was 
elected to the Florida House of Representatives.

    Mr. Chairman, it has been my pleasure to introduce this 
capable woman to the Commerce Committee this morning. Thank 
you.
                                ------                                


   Prepared Statement of Arthenia L. Joyner, Nominee to the Federal 
                  Aviation Management Advisory Council

    Mr. Chairman and Members of the Committee: I am Arthenia L. 
Joyner. It is a pleasure to appear before you as you consider 
my nomination to the newly constituted Federal Aviation 
Management Advisory Council (MAC). Given the Committee's busy 
agenda, I am especially grateful that my nomination has been 
scheduled for consideration.

    I am a lifelong Florida resident who has been a member of 
the Bar for more than 30 years. Although time passes swiftly, 
it is difficult for me to believe that I was the first African 
American female attorney to practice in Tampa.

    I have been very active in the American Bar and the 
predominantly minority National Bar Association, serving as its 
second female president in 1984.

    Nearly 10 years ago, I became a founding partner in my 
present law firm, Stewart, Joyner, & Jordan-Holmes, P.A., where 
I practice predominantly in probate, guardianship, and 
municipal finance. However, I have a background in aviation 
that I believe will benefit this multi-disciplinary council.

    Like MAC nominee David Plavin who is also before you today, 
I am particularly interested in airport operations. In 1991, I 
was appointed by Florida Governor Lawton Chiles to the 
Hillsborough County Aviation Authority. The Authority has 
exclusive jurisdiction, control, and management over all public 
aviation facilities in the Tampa area.

    Tampa is a medium-sized American city that owes much of its 
growth to the success of its airports.

    During my two terms on the Authority, I was elected by my 
colleagues as vice-chair and chair.

    I have been an active member of Airports Council 
International North America (ACI, NA), the Airport Minority 
Advisory Council (AMAC), and the Commissioners Committee. The 
Commissioners Committee is comprised of airport commissioners 
from throughout the United States and Canada, and I was honored 
to serve as its' vice-chair.

    Airport administration is a critical issue that needs to be 
examined by the Management Advisory Council. By 2010, we expect 
over one billion passengers to use American airports every 
year. There will also be a tremendous increase in freight over 
the next 10 years. By passing AIR-21, Congress has recognized 
the need for broader investment in aviation facilities, but we 
must look beyond capacity improvements. The MAC should also 
examine how better technology, more effective management, and 
improvements in air traffic control can help our airports deal 
with the demands of the 21st Century.

    Mr. Chairman and Members of the Committee, I believe, if 
confirmed, that I can bring valuable experience to the 
Management Advisory Council. I applaud Congress for creating 
the MAC, and I look forward to serving my country with the 
other distinguished members, all of whom bring a wealth of 
knowledge and training to the council.
                                ------                                


Prepared Statement of David Z. Plavin, Nominee to the Federal Aviation 
                      Management Advisory Council

    Good morning Mr. Chairman, I am David Z. Plavin, President 
of Airports Council International-North America. (ACI-NA). It 
is a privilege to be here today as a nominee to the Federal 
Aviation Management Advisory Council. I have served as 
president of ACI-NA since January 1996. ACI-NA provides a wide 
range of member services and it represents 150 governing bodies 
that own and operate some 450 airports--from general aviation 
and small commercial service airports to the largest airports 
in the world--with a multitude of interests and priorities, 
throughout the United States, Canada, and the U.S. Virgin 
Islands. ACI-NA also represents the interests of more than 375 
corporate members who serve the airport community. ACI-NA is 
the largest of six regions of the Airports Council 
International based in Geneva, Switzerland.

    From June 1989 to October 1995, I was the Director of 
Aviation for the Port Authority of New York and New Jersey 
where I was responsible for the management and development of 
John F. Kennedy International, Newark International, LaGuardia, 
Teterboro Airport and two Manhattan heliports. Together, these 
facilities constitute the world's leading aviation hub.

    I also served as the Executive Director from 1981 through 
1984 at the Metropolitan Transportation Authority, which was 
responsible for bridges, commuter trains, buses, and tunnels 
for the entire New York Metropolitan area.

    A significant portion of my life has been dedicated to 
developing and improving the Nation's air transportation 
system. Today, that system is the central element of our 
domestic and global competitiveness. Airports are ``economic 
engines'' that generate and support local economic development 
by providing complete transportation services, stimulating 
business activity and investment, attracting and facilitating 
travel and tourism and creating more jobs. And air 
transportation remains the quickest way of moving high-value 
goods through our transportation system, as well as moving 
millions of passengers across the country and the world.

    While we have built a highly successful system of air 
transportation in this country, we can, and must, do more. As 
we look to the future, we face significant challenges in 
aviation. We expect one billion passengers to use our air 
transportation system annually by the end of the decade. 
Imagine the equivalent of the entire population of the United 
States added to an already, crowded, already congested, already 
delayed system. We need to look systemically at air 
transportation to determine how to accommodate this increased 
demand. We need more capacity, better technology and greater 
resources, while recognizing that safety must remain our top 
priority.

    If I am fortunate enough to be confirmed for this position, 
it would be my honor to work with you Mr. Chairman, other 
Members of this Committee and other Council members to build an 
air transportation system that meets the challenges of the 
future and is second to none.

    I would be happy to respond to any questions you or other 
Members of the Committee may have.

    Thank you.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

</pre></body></html>
